TAMARA R. CRAWFORD
TERENCE (TERRY) C. MCCARTHY
TAYLOR P. FRANKS

SCOT G. DOYEN*
WILLIAM T. SEBESTA
RANDALL J. POELMA, JR.
ANGELA M. HAHN

DOYEN SEBESTA & POELMA
*Board Certified – Civil Trial Law
Texas Board of Legal Specialization

WRITER’S DIRECT:

sdoyen@ds-lawyers.com
713.580.8902

ATTORNEYS AT LAW

October 4, 2019
The Hon. Scott S. Harris, Clerk
Supreme Court of the United States
1 First Street, N.E.
Washington, D.C. 20543
Re:

Via FEDEX and EFILE

Ali Ekhlassi v. National Lloyds Insurance Company (No. 19-312)

Dear Mr. Harris:
I am counsel of record for National Lloyds Insurance Company (“National Lloyds”),
Respondent in the above referenced matter. The petition for writ of certiorari was filed on September
3, 2019, and placed on the docket September 6, 2019. The brief in opposition thereto is required to
be filed on October 7, 2019, unless such a filing is waived or the time for filing is extended.
Pursuant to U.S. Supreme Court Rule 30.4, National Lloyds requests an extension of time of
fifty-six (56) days to file a brief in opposition to the petition for certiorari filed in this case. National
Lloyds has consented to the Texas Association of Public Insurance Adjusters (“TAPIA”) filing an
amicus curiae brief supporting the petition for certiorari. National Lloyds would appreciate the
opportunity to review and respond to the filing in its brief in opposition to the petition.
For the foregoing reasons, Respondent National Lloyds respectfully requests an extension of
56 days through Monday, December 2, 2019, to file its brief in opposition. I have conferred with
Dan Geyser, counsel of record for Petitioner Ali Ekhlassi, who stated Petitioner does not oppose this
requested extension.
Respectfully submitted,
Scot G. Doyen
Doyen Sebesta & Poelma, LLLP
450 Gears Rd., Ste. 350
Houston, TX 77067
(713) 580-8902
sdoyen@ds-lawyers.com

PARAGON CENTER ONE ▪ 450 GEARS ROAD, SUITE 350 ▪ HOUSTON, TEXAS 77067
713.580.8900 TELEPHONE ▪ 713.580.8910 FACSIMILE
WWW.DS-LAWYERS.COM

cc:
Ali Ekhlassi
Daniel L. Geyser
Geyser P.C.
One Energy Square
4925 Greenville Ave., Ste 200
Dallas, Texas 75206
(214) 800-2660
daniel.geyser@geyserpc.com
Todd Lipscomb
Loree & Lipscomb
The Terrace at Concord Park
777 E. Sonterra Blvd., Ste 320
San Antonio, Texas 78258

